No. 20-443
IN THE

*uprente Court of the littiteb i§tatto
UNITED STATES OF AMERICA,
Petitioner,
v.
DZHOKHAR A. TSARNAEV,
Respondent.

On Writ of Certiorari to the United States Court of
Appeals for the First Circuit

BRIEF OF AMERICAN CIVIL LIBERTIES UNION,
AMERICAN CIVIL LIBERTIES UNION OF
MASSACHUSETTS, INC., NATIONAL
ASSOCIATION OF CRIMINAL DEFENSE
LAWYERS, AND THE RUTHERFORD INSTITUTE
AS AMICI CURIAE IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,880 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 27, 2021.

( 1" /
Colin Casey ogan
Wilson-Epes Printing Co., Inc.

